No. 20-1374

In The

Supreme Court of the United States
____________
CVS PHARMACY, INC., ET AL.,
Petitioners,
V.

JOHN DOE, ONE, ET AL.,
____________

Respondents.

On Writ of Certiorari to the United States
Court of Appeals for the Third Circuit
____________
BRIEF FOR THE CHAMBER OF COMMERCE OF THE UNITED STATES
OF AMERICA AS AMICUS CURIAE IN SUPPORT OF PETITIONERS
____________
CERTIFICATE OF SERVICE
I, Gregory G. Garre, counsel for Amicus Curiae The Chamber of Commerce of
the United States of America, and a member of the Bar of this Court, hereby certify
that on the 10th day of September, 2021, I caused to be served three (3) copies of the
Brief for The Chamber of Commerce of the United States of America as Amicus
Curiae in Support of Petitioners in the above-referenced case by first-class mail,
postage prepaid, upon the counsel for Petitioners and Respondents as listed below:

Lisa S. Blatt
Williams & Connolly LLP
725 12th Street, NW
Washington, DC 20005
(202) 434-5050
lblatt@wc.com
Counsel for Petitioners
Gerald Sinclair Flanagan
Consumer Watchdog
6330 San Vicente Blvd., Suite 250
Los Angeles, CA 90048
(310) 392-0522
jerry@consumerwatchdog.org
Counsel for Respondents
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Brief for The Chamber of Commerce of the United States of America as
Amicus Curiae in Support of Petitioners was transmitted to the above-listed counsel
at the referenced email addresses.
I further certify that all parties required to be served have been served.

By

Gregory G. Garre
Counsel of Record
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com
Counsel for Amicus Curiae

2

